HHS/OIG, Audit -"Review of Services Ordered by Chiropractors and Performed by Garfield Imaging
Center,"(A-09-05-00055)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Services Ordered by Chiropractors and Performed by Garfield Imaging Center," (A-09-05-00055)
July 11, 2005
Complete
Text of Report is available in PDF format (315 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Garfield Imaging Center LTD (Garfield Imaging) billed Medicare
for diagnostic services ordered by chiropractors.  Contrary to Federal regulations and Medicare
guidelines, Garfield Imaging billed Medicare for diagnostic services ordered by chiropractors during
calendar years 2001, 2002, and 2003.  As a result, Medicare overpaid Garfield Imaging $88,747.  Garfield
Imaging did not have adequate controls to prevent billing Medicare for diagnostic services ordered
by chiropractors.  We recommended that Garfield Imaging refund to the Federal Government $88,747
in Medicare overpayments identified for calendar years 2001, 2002, and 2003 and strengthen controls
to ensure that it does not bill Medicare for diagnostic services ordered by chiropractors.  Garfield
Imaging agreed with our finding and recommendations.